SUPREME COURT OF THE UNITED STATES
WASHINGTON, D.C
Clara Lewis Brockington,

)
)
)

Plaintiff,
Vs
Salem United Methodist Church, et al.
Defendants.

Case No. 20-6595
APPEAL

)
)
)
)
)

Pro Se Plaintiff is appealing to the COURT to CONTINUE PETITIION FOR REHEARING and
Accept Delayed Documents, due to the death of a brother, Sammie Lee Kelly and a nephew,
Sammie Lee Kelly Jr., recently that has caused my depression, anger, stress and causing me to
be on numerous medications and was dysfunctional daily, weekly and at present time, since
their death. I trust that the attached documents will confirm my medical, psychological, etc.,
diagnosis at this time, and requesting the COURT to grant this MOTION To Accept the Delayed
Documents (due to deaths and non-functional to think nor send documents) and Continue For
Rehearing in favor of Pro Se Plaintiff. I would prefer to NOT utilize my medical file, due to my
Medical Professionals were in depth concerning my medical and mental state, experiencing for
the first time in life, the death of two family members at the same time. I look forward to the
COURT granting this MOTION. Thanks in advance!

Clara Lewis Brockington, Pro Se Plaintiff^""^
Post Office Box 3232, Florence, South Carolina 29502

Florence, South Carolina
April 5, 2021

RECEIVES
APR 1 3 2m
fuPREMgTconpCrLF,noK

CERTIFICATE OF SERVICE

This is to certify that Salem United Methodist Church, et al, have received a
copy of the APPEAL To Accept Delayed Documents and Continue Petition For
Rehearing by the United States Postal Service mailed on April 5, 2021 at the
addresses on record.

ctefa-tewis Brockington, Pro Se Plajptfff
P. O. Box 3232, Florence, SC 2
2
Telephone: 843-616-1317

Florence, South Carolina

April 5, 2021

SUPREME COURT OF THE UNITED STATES
WASHINGTON, D.C.
Clara Lewis Brockington,

)

No. 20-6595

)

Plaintiff,

)

PETITION FOR REHEARING

)

Salem United Methodist Church, et al.

)
)

Defendants.)

Pro Se Plaintiff is presenting before the COURT this PETITION FOR
REHEARING to be granted by the Supreme Court of the United States. This
PETITION FOR REHEARING is being presented in a timely manner, in good faith
and not for delay. Pro Se Plaintiff is asking the COURT to grant this Petition in
Plaintiff's favor, due to the Defendants have caused Plaintiffs pain and suffering,
stress, depression, anxiety, embarrassment, interaction with friends, family and
church members, loss of worship, socialization, confusion at spouse's church,
family quarrels, medical, psychological and therapy visits, etc. Pro Se Plaintiff is
stating a claim for relief to settle this case in the amount of $50,000 and/or
requesting that this case is continued to settle a claim. I will always have
continuous visits medical and psychologically for the remainder of my lifetime per
my Professionals. Thanks in advance for granting this PETITIION FOR REHEARING
in the favor of the Plaintiff with this states claipa^f relief and/or continuing case.

Cl
•isrSrockington, Pro Se Plaintiff
P. O. Box 3232, Florence, SC 29502''''''^
March 13, 2021
Florence, South Carolina

MAR 3 1
Office OiF TJ
supre^c cr.

1

FACTS
Please note for the record that the COURT did not list any reasons why the
Petition for a Writ of Certiorari was denied, in order that proper corrections could
be made and resubmitted. I worked in a courtroom over 15 years and every
JUDGE gave the individuals before them reasons why they were issuing a denial.
It appears to me to be PROFESSIONAL AND WITHIN STANDARDS to inform the
Plaintiff and/or the Defendants the reasons for denials.
Plaintiff will continue to state the facts that this case has been discussed
with numerous other pastors, ministers and evangelists. They have all stated that:
1/No clergy has authority to remove anyone from GQD's house. The church does
not belong to anyone. It is a place where we all go and worship, pay our tithes,
renew our faith, be a pillow for other perishers' in the church who are crying out
for help, etc. These other clergies (about30) will testify in case there will be
further legal action against Salem United Methodist Church, et al.
2/There will be about 50 or more members that will testify that they did not get
baptized at Salem United Methodist Church, but is still a member. We have
something called, "Watch Care Baptism" where a member can get baptized at
another church since we do not baptized, join their spouse's church or prefer to
get God's word from another denomination and remain a member of Salem
United Methodist Church.
3/Plaintiff have been discriminated against and do not understand why the
COURT cannot come to that conclusion when there are numerous other persons
in the church that wanted to be baptized like JESUS, and go under water in the
name of the Father, Son and Holy Ghost. Again, Salem United Methodist Church
only sprinkle water on the top of your head and call that "baptism". If other

(S

members and I chose to go to another church which is doing what the BIBLE tell
us to do to be saved in Jesus's name, why does the COURT deny me of my rights?
This is discrimination according to Amendment V - Rights of Persons. "No person
shall be held to answer for a capital or otherwise infamous crime, unless on a
presentation or indictment of a Grand Jury, except in cases arising in the land or
naval forces, or in the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use, without just
compensation." Plaintiff has been deprived of life, liberty or property. I pay
tithes and have lifetime rights to the church, gravesite, property, etc., at Salem
United Methodist Church and all this have been taken from me, due to the
COURTS won't apply the discrimination laws, etc.
4/According to Amendment IX - Unenumerated Rights, I have been discriminated
against and rights have been violated. "The enumeration in the Constitution, of
certain rights, shall not be construed to deny or disparage others retained by the
people." All the churches in the United States belong to God. No Court, no man,
no clergy, etc., have a right to deny membership or terminate membership. I
have been a member of Salem United Methodist Church since I was 15 years old.
My parents took me to this church since birth (65 years of attendance). When we
get to heaven, which will stand before my GOD and tell GOD that the COURT rules
come before GOD's rules? Who will stand before GOD and tell GOD that your
decisions derived from a rule book when GOD has the Book of LIFE? I am asking
the COURT to review this rehearing with God's Word and NOT man's word.

-t-------V

1

5/According to Amendment XIV - Rights Guaranteed, my rights have been
violated and I have been discriminated against again. "Privileges and Immunities
of Citizenship, Due Process and Equal Protection.
A/All persons born or naturalized in the United States, and subject to jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.
6/Amendment I - Freedom of expression and RELIGION. Congress shall make no
law respecting an establishment of religion or prohibiting the free exercise
thereof; or abridging the freedom Of speech, of the press; or the right of the
people peaceably to assemble, and to petition the Government for a redress of
grievances. If we disregard all the other Amendments, this one tells us everything
we need to know about RELIGION, etc. I am requesting that the Supreme Court
utilized all of these Amendments and know that my rights have been violated and
I have been discriminated against when others in the Church have been baptized
at other churches and remain a member of Salem United Methodist Church. I
have a Paralegal Degree, Bachelor's Degree, Master's Degree and over 15 years
working in the legal system and it does not take much knowledge to see
violations, discrimination, etc., in this case. My experience working with the
Attorney General Office gives me the knowledge I needed to see the violations, as
well as the legal advisors, State Representatives, Clergies, Former Pastors of
Salem United Methodist Church, etc. Due to my numerous disabilities and loss of
employment due to injuries, I am not able to pursue cases in another perspective.

REASONS FOR GRANTING
6/Rev. Bryan Mungo, Pastor of Salem United Methodist Church, accused
me of SIGNING his name to a form to send to our Conference Office to request
assistance with medical bills. Gail Corn in Columbia, South Carolina will confirm
and verify that I did NOT sign anyone's name. I have completed this form about
five times for assistance. None of the former PASTORS have ever made any
accusations of me completing the form illegally nor wrongfully. I worked in a legal
system over 15 years and know the laws of the State. Rev. Mungo does not have
any college education, no degrees and should NOT be at Salem United Methodist
Church. He is violating the conference laws of the United Methodist Churches.
No Pastors have ever been hired to preach at Salem United Methodist Church
unless you had a Bachelor or Master's Degree. Who does it seem like breaking
laws and preaching illegally according to the bylaws? I think I have a case when it
comes to discrimination, violations, breaking the laws, etc. After my clarification
of his error on the application, he decided that he wanted to look for anything so
that he can terminate me from the church. Who in the right mind (child of God,
head of the Church, etc.) will allow other clergies and pastors hear that you think
you are bigger than GOD and terminate someone from GOD's HOUSE?
7/Rev. Mungo and refused to follow the instructions of Bishop Holston in
the letter dated July 16, 2018. Rev. Terry Fleming, District Superintendent
refused to follow the instructions of Bishop Holston in the letter dated, July 16,
2018. The FACT is that the two clergies refused to follow instructions and single
me out as a "troublemaker" when I contacted the Bishop and decided to work
against what the Bishop suggested and terminated my membership from Salem
United Methodist Church. I have been discriminated and violated against, which

is against the laws in the State of South Carolina. The COURT has been presented
the facts and now I am making this MOTION to approve this Rehearing and award
Plaintiff the claim of relief in the amount of $50,000. The COURT has a copy of
Rev. Daniel McCowan, Pastor of Maxwell Baptist Church, who spoke with Rev.
Joyce Chiles, who was the Pastor of Salem United Methodist Church and myself
and we three agreed that I could get baptized at Maxwell Baptist Church under
"Watch Care". My spouse is a member of Maxwell Baptist Church and my
daughter, as well as other family members. Please note for the record also that
all my siblings and parents got baptized at other churches and remain members of
Salem United Methodist Church. Is this discrimination? Is this a violation of my
Civil Rights? Is this a violation of my rights according to the First Amendment?
8/My civil rights have been violated and disrespected according to the Civil
Rights Act of 1964. "An Act to enforce the constitutional right to vote, to confer
jurisdiction upon the district courts of the United States of America to provide
injunctive relief against discrimination in public accommodations, to authorize the
Attorney General to institute suits to protect constitutional rights in public
facilities and public education, to extend the Commission on Civil Rights, to
prevent discrimination in federally assisted programs, to establish a Commission
on Equal Employment Opportunity, and for other purposes." Again, this
definitely shows that my rights have been violated and I have been discriminated
against from 2018 to present time by Salem United Methodist Church, et al.
CONCLUSION
I beg the COURT to review this Petition for Rehearing and grant in favor of
Plaintiff, due to Salem United Methodist Church has discriminated against me by
terminating my membership due to baptism, when others in the church have

been baptized and remain a member of Salem United Methodist Church, as well
as violated the laws of the State of South Carolina. Defendants have also violated
my Civil Rights when I was discriminated against in public accommodations, etc.
Plaintiff is also asking the COURT to grant relief of claim in the amount of $50,000
for all the violations, discrimination, pain and suffering, medical, mental and
psychological abuse, damages from embarrassment, socialization, mental
distress, stress, depression, anxiety, punitive damages, lifetime medications,
lifetime therapy, etc. Again, this PETITION FOR REHEARING is being presented in
good faith, not for delay and in a timely manner. Plaintiff has MOTION before the
COURT to grant Motion in favor of Plaintiff and approve settlement of Relief Claim
in the amount of $50,000. Thanks in advance for all of your hard work.

Z
/lara Lewis-BfOfkington, Pro Se Plaintiff
prOTBox3232, Florence, S. C. 2950^
Telephone: 843-616-1317

Florence, South Carolina

March 13, 2021

Additional material
from this filing is
available in the
Clerk's Office.

